•v*

•9

No. 20 - 7258

IN THE
SUPREME COURT OF THE UNITED STATES

TOI HORN,
ESTATE OF EMMA M. HORN,
E&E FAMILY TRUST,
Petitioner(s)/infant, minor,
v.
FEDERAL NATIONAL MORTGAGE ASSOCIATION “FANNIE MAE” et al.,
Respondents.

On Petition for a Writ of Certiorari to The United States Court
of Appeals for the Fourth Circuit

PETITIONERS’ REPLY BRIEF
&

MOTION TO STRIKE/DISREGARD
RESPONDENTS OPPOSITION

Toi J’vhann Horn, POA,
Equitable beneficial title holder,
Personal Rep. for the Estate, Trustee,

April 2, 2021

c/o 10312 Garson Terrace
Lanham, Maryland 1207061
(240) 602-2140
RECEIVED
toihom2@gmail.con]

APR - 7 2021

(0
TABLE OF CONTENTS
TABLE OF CONTENTS

1

INDEX OF APPENDICES

11

TABLE OF AUTHORITIES

in

| Why the U.S. Supreme Court Must Grant
i Writ of Certiorari...................................

1

FRAUD ON THE COURT

5

ALL PARTIES TO THIS CAUSE
MUST STAY..............................

6

FALSE FORECLOSURE BOND

7

FALSE DEED OF APPOINTMENT OF
SUBSTITUTE TRUSTEES..................

8

THE INFERIOR COURTS MADE SEVERAL ERRORS
DUE TO RESPONDENTS’ FALSE FILINGS................

10

LAWS NEED TO BE CHANGED IN
FORECLOSURE CASES.................

11

(ii)
APPENDIX A

Exhibit 3 - FORECLOSURE BOND

la

Exhibit 4 - DEED OF APPOINTMENT OF
SUBSTITUTE TRUSTEES......

2a

Exhibit 1 - AFFIDAVIT

4a

MOTION FOR RELIEF FROM
AUTOMATIC STAY..............

21a

NOTICE OF MOTION FOR RELIEF
FROM STAY AND HEARING THEREON

26a

TRUSTEES’ REPORT OF SALE

29a

(iii)
TABLE OF AUTHORITIES
Cases
Estate No. 100174: IN THE ESTATE OF EMMA M. HORN

passim

United States v. Kis, 658 F. 2d 526, 536 (7th Cir. 1981);

5

Group v. Finletter, 108 F. Supp. 327 federal case of

5

McCulloch v. Maryland, Supremacy Clause Article VI,
Paragraph 2 of the U.S. Constitution............................

10, 11

Meredith v. Rams dell, 152 Colo

passim

Denver Business Sales Co. v. Lewis

7,8

Cheek v. McGowan Elec. Supply Co.

7,8

Statutes and Codes
Maryland Estates and Trust Code Section 8-103 (2017)
Claims of Creditors Subtitle 1 General section 8-103.
Limitation on presentation of claim.. .(a) (1) (2)..........
Annotated Code of Maryland, real property Article,
Section 10-702, prov ...............................................

passim

1,2

U.S. Constitution
Fifth Amendment.................................
Supremacy Clause, Article VI, Clause 2
Bill of Rights........................................

passim
10, 11
passim

Legal Maxims
Caveat emptor

7,8

1

Why the U.S. Supreme Court Must Grant Writ of Certiorari

ESTATE OF EMMA M. HORN
v.
ESTATE OF EMMA H. HORN

The primary concern of the Supreme Court is not to correct errors in
lower court decisions, but to decide cases presenting issues of importance beyond
the particular facts. Petitioners have informed the U.S. Supreme Court of important
considerations for accepting this case for review. Due to fraud committed by
Respondents: Petitioners request this court issue a writ of certiorari to review the
fraud that Respondents committed at the inferior court resulting in further fraud
committed at the Bankruptcy Court and U.S. Appeals Court. Respondents filed
a “Motion For Relief From Automatic Stay” Doc 123 filed 11/02/18 under
Bankruptcy Case No.: 18-15871 Chapter 7 TOI HORN, see Appendix A 21a:
“that Federal National Mortgage Association (“Fannie Mae”) (“Movant”) by
undersigned counsel, respectfully moves this court to terminate the Automatic Stay
as to the real property located at 10312 Garson Terrace, Lanham, MD 20706

2

(“Property”), and, as grounds therefore, states as follows: under number 3
3. On or about April 28, 2003, Emma M Horn executed and delivered to
Universal American Mortgage Company, LLC, a Note...............
4. The Note was later transferred to Movant and Movant held the Note at the
time of the foreclosure sale.
6. Upon information and belief, Emma M Horn is deceased. The Debtor is an
heir and has an interest in the property.”
Here, as one can see, Respondents lied to the U.S. Bankruptcy court, right here,
under their “Motion For Relief From Automatic Stay” see Appendix A - 21a
with conflicting statements. These false statements do not match ‘their’ statements
under their Foreclosure Bond Exhibit 3 Appendix A - la and ‘their’ Deed of
Appointment of Substitute Trustees Exhibit 4 Appendix A - 2a. Respondents’
claim is against the ESTATE OF EMMA H. HORN and EMMA H. HORN not
EMMA M. HORN, Certiorari before judgement is needed here. Respondents led
the U.S. Bankruptcy Court to believe that their Motion for Relief was true, so
therefore, the U.S. Bankruptcy court ruled in ‘their’ favor because the court
believed their fraudulent claim. This EMMA H. HORN is not an error, this is fraud
on the court because there were to many documents filed in the court record with
the false title name ESTATE OF EMMA H. HORN, again, Respondents’ desire
that the U.S. Supreme Court overlook this FRAUD. This has been the problem
from the beginning.

3

The U.S. Supreme Court cannot move forward when fraud has been committed;
this court must review all document entries of Petitioners and Respondents;
therefore, Certiorari before judgement would be appropriate because of the fact
that, Respondents filed a false fake Bond see Appendix A - la. The U.S. Supreme
Court must review this false Bond under Appendix A - la. Does this Bond match
Respondents Motion for Relief from Automatic Stay see Appendix A - 21a?
Anyone can see that the Bond and the Motion does not match. The issue of
importance is beyond the particular facts here. We cannot move forward when
Fraud is on the court. All Respondents failed to answer and rebut point for point
Exhibit 1 - AFFIDAVIT attached to this Reply Brief. The U.S. Supreme Court
cannot allow Respondents to ignore and stand mute under this cause. It is
Respondent’s obligation to respond point for point with actual evidence to the
AFFIDAVIT attached, if Respondents fail to rebut Exhibit 1 point for point,
than Exhibit 1 - AFFIDAVIT becomes the law of this cause see United States v.
Kis, Group v. Finletter, McCulloch v. Maryland. Are the U.S. Supreme Court
Justices aware that Respondents have already failed to rebut Appendix A 4a? ALL
Respondents received Appendix A 4a and not one of the Respondents rebutted the
Affidavits point for point. It has been more than thirty days. Certiorari before
judgement must be granted.

\

4

There must be relief in this very profoundly serious matter of
stealing trust property. The false Bond that Respondents filed in the court record
was NOT an error; Respondents knew exactly what “their” intentions and plans
were when they filed an entire Civil Case against a fake false fictitious name titled
the Estate of Emma H. Horn at the Circuit Court for Prince George’s County,
Maryland. Respondents appointed themselves as Substitute Trustees over a fake
false estate. Respondents were so bold in their actions when “they” filed the false
Bond and now, Respondents are trying to convince the court that it was an error. If
Emma H. Horn was an error; then why did Respondents file several documents by
using the title Estate of Emma H. Horn Under Civil Case No. CAEF18-01811 at
the Circuit Court for Prince George’s County, Maryland, Respondents knew that
Emma H. Horn did not match the original title under the Deed of Trust and the
Original Note of Emma M. Horn. Respondents appointed themselves as Substitute
Trustees for the ESTATE OF EMMA H. HORN under a fraudulent Deed of
Appointment of Substitute Trustees dated January 17, 2018 see Exhibit 4; these
are compelling reasons that should convince the U.S. Supreme Court to grant the
Certiorari before judgement.

5

FRAUD ON THE COURT
Fraud on the court: in the Black’s Law dictionary Seventh edition states: A
lawyer’s or party’s misconduct in a judicial proceeding so serious that it
undermines or is intended to undermine the integrity of the proceeding; (example introduction of fabricated evidence.)

The false Foreclosure Bond and the false fake Deed of Appointment of
Substitute Trustees are both fabricated and fraudulent evidence that Respondents
presented to the court which made the court believe that ‘their’ false claim was
real. Certiorari must be granted. The Supreme Court must review this matter. We
cannot allow Respondents to remain mute and ignore the true facts.

Why does Respondents feel “they” do not have to answer Petitioners’
affidavits, complaints, and questions presented to the courts? Respondents feel
that the courts are going to protect them by allowing them to not answer any
questions that Petitioners presented to the court of record. This has been
Respondents plot to escape answering Petitioners’ Affidavit’s point for point. They
come up with every reason not to rebut point for point the affidavits presented to
the court of record. Respondents’ actions show, they do not have to answer any
Affidavits that were filed against them. This behavior must be stopped right here
and now. Petitioners request the U.S. Supreme Court request Respondents answer
the questions presented be reviewed and investigated by the U.S. Supreme Court.

6
All Parties Must Stay Under This Cause

The parties listed under Petitioners Petition for a Writ of Certiorari must not be
removed. All parties listed under this cause must stay. Orlans PC must not be given
the authority to remove the parties that Petitioners listed under this cause. ALL
Respondents that are listed under this cause were filed under Bankruptcy Case No.
18-15871 Chapter 7 as alleged creditors; therefore, all Respondents listed under
this Petition must answer the Writ of Certiorari. Orlans PC should not be granted
the authority to speak for all listed Respondents. The only Respondent that was not
listed as an alleged creditor under Bankruptcy Case No. 18-15871 Chapter 7 was
NATIONSTAR MORTGAGE, LLC, d/b/a MR. COOPER; this entity is currently
harassing Petitioners via the U.S. Postal Service. Please review the Bankruptcy
Case No. 18-15871 Chapter 7 - TOI HORN.

RESPONDENTS did file a false claim by using a false fake Bond and a false
fake Deed of Appointment of Substitute Trustees dated January 17, 2018. We all
need to take a good look at these fraudulent documents, see Exhibit 3 - fake false
Foreclosure Bond and Exhibit 4 - Deed of Appointment of Substitute Trustees;
Certiorari before Judgement must be granted. The U.S. Supreme Court must
review and analyze this fake Bond and fraudulent Deed of Appointment of

7
Substitute Trustees because of the issues of importance beyond the particular facts
here. If Respondents cannot prove that Exhibit 3 - Bond and Exhibit 4 - Deed of
Appointment is true, then the court cannot allow this case to move forward. The
U.S. Supreme Court must demand Respondents prove Exhibit 3 and Exhibit 4 is
true, correct, and complete. The Court cannot move forward with fraud.

The Deed of Appointment of Substitute Trustees has a false fake fictious name
titled Emma H. Horn under the second paragraph second line. This Fraud is not an
error; fraud is a criminal deception resulting in financial or Personal gain, a person
or thing intended to deceive others by unjustifiable claims. Fraud also is an
intentional deception to secure unfair or unlawful gain and deprive a victim of a
legal right which violates civil law. The lower Courts and the U.S. Appeals court
overlooked the true facts of this cause. Petitioners’ questions and document entries
were profoundly ignored by the courts. Fraud on the court undermines the integrity
of the judicial processes.

FALSE FORECLOSURE BOND
See Exhibit 3 - Bond
Petitioners’ demand to challenge this false Bond of Respondents. Petitioners do
not agree with this false fake Bond. Certiorari before Judgement must be granted.

8

The owner of the property at issue is E&E FAMILY TRUST. E&E FAMILY
TRUST did not have and does not have a mortgage contract agreement with
Respondents. This is the first lie/false statement that Respondents stated under
their false Bond. Respondents claimed under this false Bond that the Estate of
Emma H. Horn was the surviving Tenant by the Entirety of Ernest F. Horn, this is
a false statement. Emma H. Horn was not the surviving Tenant by the Entirety of
Ernest F. Horn. Respondents claimed that the Estate of Emma H. Horn and E&E
FAMILY TRUST had a Deed of Trust and a Mortgage with them; this statement
is a lie and is false. Respondents have to prove to the court that “they” had a Deed
of Trust and a Mortgage with Emma H. Horn and E&E FAMILY TRUST.
Respondents have yet to prove this profoundly serious matter. Please refer back to
Exhibit 1 - Affidavit.

FALSE DEED OF APPOINTMENT OF SUBSTITUTE TRUSTEES

See Exhibit 4 - Deed of Appointment of Substitute Trustees

Petitioners demand to challenge the Deed of Appointment of Substitute Trustees.
Respondents used a false Deed of Appointment of Substitute Trustees see
Exhibit 4; to take the trust and its property known as 10312 Garson Terrace,

9
Lanham, Maryland 20706. We can not move forward; we must all review these
findings of fraud because Respondents believe they had the right to sale the
Trust and its property by using a false Bond and a false fictious name titled the
Estate of Emma H. Horn. Here is where one can truly see the fraud see Exhibit 4
states under the last paragraph second sentence;
“the Beneficiary does hereby appoint, James E. Clarke, Hugh J. Green, Shannon
Menapace, Christine M. Drexel and Brain Thomas as Substitute Trustees, who
may act either independently or jointly, under the Deed of Trust, with identically
the same title and estate in and to the land, premises and property conveyed
by the Deed of Trust.” This right here proves that Respondents created a false
Deed of Appointment of Substitute Trustees for Emma H. Horn. Appendix A 2a
states that Emma H. Horn had a Deed of Trust dated April 28, 2003 with them.
This issue of importance is beyond the particular facts. Certiorari must be granted
here.
Will the U.S. Supreme Court Support this type of behavior? Will the U.S.
Supreme Court allow Respondents to stand silent in not responding point for
point to the Appendix A 4a fded by Petitioners?
Respondents continue to come up with their own reasons by using colorable fake
law for why the U.S. Supreme Court should not grant the Writ of Certiorari for
Petitioner. When fraud is involved, the court cannot move forward. Fraud
must be investigated and reviewed. No contract is good when fraud has been
found and exposed. The court must overturn the decision when a court finds
a party that committed fraud.

10
The Inferior Courts Made Several Errors
Due to Respondents’ False Filings
The courts made several errors because of Respondents false filings. Respondents
made the courts believe that the Estate of EMMA H. HORN was real and that they
were the Appointed Substitute Trustees for a false estate that never had a Deed of
Trust nor an original Note that encumbers real property known as:

BEING KNOWN AND DESIGNATED as Lot 14, Block G, in a subdivision
known as Glenn Estates, as per plat thereof recorded among the Land Records of
Prince George’s County, Maryland in Plat Book NLP 154, Plat No. 82.
The improvements thereon being known as 10312 GARSON TERRACE.
AND generally known as 10312 Garson Terrace, Lanham, MD 20706;

The courts granted Respondents the authority to take property because of this very
False document here titled DEED OF APPOINTMENT OF SUBSTITUTE
TRUSTESS Appendix A 2a. This is a false fraudulent document that must be
reviewed by the United States Supreme Court immediately. Petitioners dispute this
false document. This issue of importance is beyond the particular facts that were
overlooked by the lower courts, Meredith v. Ramsdell 152 Colo, “[a] person who
misleads another by word or act believe a fact exists, when he knows it does not, is

11
guilty of fraud, Denver Business Sales Co. v. Lewis, 148 Colo, (trial court reversed
in a deceit case based on nondisclosure for instructing the jury that the defendant
was liable if he failed to disclose a fact which “by the exercise of reasonable
prudence” (“[h]e who makes a representation as of his own knowledge, not
knowing whether it is true or False, and it is in fact untrue, is guilty of fraud as
much as if he knew it to be untrue”).

This looks very suspicious that all this happen at the inferior court. It
appears that the inferior court is involved with allowing this FRAUD to continue.
Petitioners need the UNITED STATES SUPREME COURT to intervene
immediately to stop the inferior courts in allowing the FRAUD to continue.

LAWS NEED TO BE CHANGED IN FORECLOSURE CASES
This cause must be considered for review. This concerns importance to the public.
Millions of citizens across this nation have lost their homes due to fraud by some
Attorneys over cases and some mortgage companies. We must stop this abuse
of power by some Attorneys and their law firms and some mortgage companies.
We request that the U.S. Supreme court grant a LAW stopping mortgage
companies from filing foreclosure cases at inferior courts without a JURY TRIAL.

12
A jury trial must be given to all foreclosure cases in every state for review to stop
Fraud and abuse of power. There must be a law to stop the mortgage company
from foreclosing on a borrower without a jury trial. All borrowers and alleged
Borrowers must be given their constitutional rights to proceed with a jury of their
peers to review if a foreclosure case should be allowed to proceed and to also;
review the court records, the Deed of Trust, the original Note, and any other
document entries by all parties in the proceedings. Petitioners were denied a jury
trial. The Foreclosure cases at the state level should not be hidden from the public
review and a jury should be entitled to review all documents for its truthfulness.
The state is allowing all kinds of fraud to take place at the inferior courts. There
has been a lot of fraud committed under this cause and the Supreme Court must
review it. Writ of certiorari must be granted without any questions stopping it from
proceeding. This cause is strictly dealing with trusts and estates; and Respondents
have no legal nor lawful entitlement to the trust and its property; so therefore, we
all need to review this very serious matter. I declare under the laws of the United
States of America that the foregoing is true and correct. Under penalty of perjury,
all statements are true, correct, and complete to the best of my knowledge.

%%
vxsc §
Respectfully submitted,

7w dtwQA/*'—

M

Toi J. Horn, POA for Petitioners/PR for estate

£■/& 10312. (Wso^
Lfl-nUcuw f AWyU/w^l [^67o£]

